<html>
<title> - THE RESULTS ACT: ARE WE GETTING RESULTS?</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                THE RESULTS ACT: ARE WE GETTING RESULTS?
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM
                             AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 1997

                               __________

                           Serial No. 105-60

                               __________

Printed for the use of the Committee on Government Reform and Oversight





                       U. S. GOVERNMENT PRINTING OFFICE
45-505                          WASHINGTON : 1997
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001







              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                  Jane Cobb, Professional Staff Member
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director








                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 30, 1997.................................     1
Statement of:
    Armey, Hon. Richard K., majority leader, U.S. House of 
      Representatives............................................    18
    Raines, Franklin, Director, Office of Management and Budget..    31
Letters, statements, etc., submitted for the record by:
    Armey, Hon. Richard K., majority leader, U.S. House of 
      Representatives, prepared statement of.....................    23
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     4
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    10
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     6
    Raines, Franklin, Director, Office of Management and Budget, 
      prepared statement of......................................    35
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    16

 
                THE RESULTS ACT: ARE WE GETTING RESULTS?

                              ----------                              


                       THURSDAY, OCTOBER 30, 1997

                          House of Representatives,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m., in room 
2154, Rayburn House Office Building, Hon. Dan Burton (chairman 
of the committee) presiding.
    Present: Representatives Burton, Hastert, Morella, Horn, 
Mica, Davis of Virginia, Sessions, Pappas, Snowbarger, Portman, 
Waxman, Maloney, Barrett, Norton, Cummings, Kucinich, and Ford.
    Staff present: Kevin Binger, staff director; Daniel R. 
Moll, deputy staff director; Judith McCoy, chief clerk; Jane 
Cobb, professional staff member; William Moschella, deputy 
counsel and parliamentarian; Teresa Austin, assistant clerk/
calendar clerk; Will Dwyer, director of communications; Ashley 
Williams, deputy director of communications; Phil Schiliro, 
minority staff director; Phil Barnett, minority chief counsel; 
Agnieszka Fryszman, minority counsel; Mark Stephenson, minority 
professional staff member, and Ellen Rayner, minority chief 
clerk.
    Mr. Burton. The Committee on Government Reform and 
Oversight will come to order. I have called this hearing today 
to continue the important oversight that I and the committee 
started in February, when we held the first full committee 
hearing of this year on the Government Performance and Results 
Act. While the press may know me for my efforts to ferret out 
fundraising abuses in the last Presidential election cycle, 
what they may not know so well is that I also take very 
seriously this committee's duty to root out waste, fraud, and 
abuse in the rest of our Federal Government.
    In our fight against waste and mismanagement, this 
committee has held over 100 oversight hearings, this year. The 
Results Act is the key tool being used in these efforts. We all 
know that the traditional way of doing business in Washington 
has been to create another program or spend more money when we 
want to solve a problem. Our lives, our property, our health 
are increasingly being dominated by Washington rules and 
regulations that give more and more power to beltway 
bureaucrats.
    The old Washington way of doing business has resulted in a 
bloated Federal Government. We have gone from spending $590 
billion per year in 1980, to nearly triple that amount to more 
than $1.6 trillion this past year. We have also added a million 
new pages--a million new pages--of Federal regulations since 
1980, and we have gone blindly about this without knowing the 
answers to some very fundamental questions, common-sense 
questions like: ``What is the purpose of this program? Is it 
appropriate that the Federal Government do it, or should it be 
done at the State or local level, or even by the private 
sector? Are there similar programs already in existence, and, 
if so, are they not achieving the desired results?''
    Taxpayers do not invest their hard-earned money in stock 
unless they think the company produces a good product in a most 
efficient and effective manner. Why should the public pay taxes 
to fund Federal programs that are not achieving good results? 
They should not, and they are counting on us to make sure that 
they do not.
    At our Results Act hearing last February, we learned that 
agencies had barely begun to think about their strategic plans 
that were due in September, even though they had known since 
1993, when the law was passed, to start preparing their plans. 
As a result, the agencies' draft plans were abysmal.
    You have seen from our September report that all but 2 of 
the 24 major Federal agencies received a failing grade in their 
draft plans. The Labor Department's score was the lowest, at 
6.5 percent. Now, that is intolerable. The Departments of 
Energy, Commerce, HUD, and Agriculture all had scores below 20 
percent. The average grade for these draft plans was 29.9 
percent. When I was in school, 70 percent or below was failing, 
and we have grades at about one-third that level.
    We are finding the final strategic plans to be somewhat 
better than the draft versions, and we will come out with a 
second report next week with the latest strategic plan's 
scores. Frankly, I think any improvements in the plans have 
more to do with where Congress, and not the administration, has 
placed the bar. In fact, some committee members, including 
myself, are concerned that the Results Act is not a high enough 
priority for OMB, thus the slipping deadlines and the low 
quality of the agency plans.
    Our majority leader, who is here with us today--and I thank 
you for being here, Dick--has played a key role in engaging 
Congress in this important effort. I am pleased to have him 
back before the committee to give us his perspective on where 
we are, and how far we have to go.
    After Mr. Armey, we will hear from the Director of the 
Office of Management and Budget, Franklin Raines, who has the 
chief role in coordinating and ensuring all Federal agencies 
comply with the Results Act.
    The General Accounting Office has also been involved in 
helping Congress access the agencies' strategic plans. The 
Acting Comptroller General, Mr. James Hinchman, is here to 
testify on behalf of their efforts.
    For our final panel, I am pleased to welcome the Honorable 
Maurice McTigue, a visiting scholar at George Mason University 
from New Zealand. Mr. McTigue, formerly a Member of Parliament 
and Cabinet Minister in the Government of New Zealand, was a 
major force in seeing Results Act-type reforms implemented in 
his country.
    I also want to commend our subcommittee chairmen, several 
of whom have held hearings this year to examine the draft 
strategic plans of the agencies in their purview. Chairman Horn 
and Chairman Shays, in particular, have done an outstanding 
job. Also, congratulations to Congressman Pete Sessions, who 
started the ``Results Caucus'' to get Members focused in the 
areas in Government at high risk for waste, fraud, or abuse. I 
also want to thank Chairman Denny Hastert for his leadership in 
putting specific performance requirements into the 
reauthorization bill for the drug czar's office; this is what 
the Results Act is all about.
    I want to welcome all of our witnesses here today, as we 
assess where we are in taking on the challenges of the Results 
Act.
    With that, Mr. Horn, do you have any opening statements?
    Mr. Horn. Well, just briefly, Mr. Chairman, we thank you 
for holding this hearing, and we thank you for the support of 
Jane Cobb of your staff and others who have been immensely 
helpful. I want to commend the majority leader for really doing 
what we all said he would do when he first testified before us 
on establishing a ``war room'' where they really keep track of 
what's going on in the various executive departments. We thank 
particularly Ginni Thomas of his staff for the very great help 
she has provided all of us, and we appreciate your continued 
commitment on this.
    I would simply say this: We have held five hearings on the 
Results Act this year at the subcommittee level. The first 
three were conducted while agencies were still working on their 
strategic plans, and I think a lot of lessons were learned, 
mutually, by the executive branch and the legislative branch.
    Our two most recent hearings concentrated on the Office of 
Management and Budget and the General Services Administration. 
I guess I would say that the strategic plans are in minimal 
compliance with the requirements of the Results Act, so we 
would hope that this hearing will try to get at some of the 
things that the executive branch could do, which would assure 
that these plans comply with the law, after the 5 years that, 
as the chairman said, we have given the executive branch to 
begin in this area. So, without objection Mr. Chairman, I would 
like to have the statement put in the record as if read.
    Mr. Burton. Without objection.
    [The prepared statements of Hon. Stephen Horn and Hon. 
Constance A. Morella follow:]
[GRAPHIC] [TIFF OMITTED] 45404.001

[GRAPHIC] [TIFF OMITTED] 45404.002

[GRAPHIC] [TIFF OMITTED] 45404.003

[GRAPHIC] [TIFF OMITTED] 45404.004

[GRAPHIC] [TIFF OMITTED] 45404.005

    Mr. Burton. Are there further opening statements? Mrs. 
Maloney.
    Mrs. Maloney Mr. Chairman, I would like to request that Mr. 
Waxman's opening statement be put in the record, and in the 
interest of time, since we have an important leader here, I 
would like my statement also to be put in the record. I won't 
read it.
    I would just like to say that the Government Performance 
and Results Act enjoyed wide bipartisan support. Since its 
passage in 1993, it was the first bill that I managed on the 
floor of Congress, so I have a particular affinity for it. It 
was signed by a Democratic President; yet, I am told it was 
drafted and supported by members of President Bush's Office of 
Management and Budget, and that President Bush himself, 
likewise, supported the concept and the GPRA bill. I don't 
think anything better exemplifies the genuine desire of both 
sides of the aisle for a good effective and efficient Federal 
Government.
    I must say that one of the prime focuses of it is one of 
the focuses really of Mr. Armey himself, to eliminate waste and 
duplication in our Government, not only in Congress, but 
throughout Government. And I look forward to your testimony, 
and I request that my opening statement and Mr. Waxman be put 
in the record in full.
    Mr. Burton. Without objection.
    [The prepared statements of Hon. Carolyn B. Maloney and 
Hon. Henry A. Waxman follow:]
[GRAPHIC] [TIFF OMITTED] 45404.006

[GRAPHIC] [TIFF OMITTED] 45404.007

[GRAPHIC] [TIFF OMITTED] 45404.008

[GRAPHIC] [TIFF OMITTED] 45404.009

[GRAPHIC] [TIFF OMITTED] 45404.010

[GRAPHIC] [TIFF OMITTED] 45404.011

[GRAPHIC] [TIFF OMITTED] 45404.012

[GRAPHIC] [TIFF OMITTED] 45404.013

    Mrs. Maloney. Thank you.
    Mr. Burton. Are there further opening statements? If not, 
Mr. Armey, welcome. I am glad to have you with us again. Since 
you were last here, your hair has gotten a little grayer. 
[Laughter.]
    Other than that, you look great.

   STATEMENT OF HON. RICHARD K. ARMEY, HOUSE MAJORITY LEADER

    Mr. Armey. Thank you, Mr. Chairman. I want to make it very 
clear, of course, that my hair has certainly not gotten more 
gray because of any of the work done on this one.
    It is a pleasure to be back here. I think you have a very 
good lineup of people to come before you, and I am sure that 
when the day is over, you'll look back and you will say the 
least of them was the majority leader, so I need to move on so 
you can get to those folks who will give more.
    I want to, if I may, though, take just a moment to join you 
in thanking Mr. McTigue from New Zealand. It is always great to 
have insight from people across the waters and around the 
globe, who have had success, and they have had success with the 
Results Act-type legislation in New Zealand, which is a nation 
that is presenting itself to be to the world a nation of good 
ideas. I would remind you, Mr. Chairman, they are also a nation 
that has the flat tax, so obviously their successes are 
emulated on as many fronts as possible, and I hope you will 
forgive me that moment of self-indulgence.
    But, I think Mrs. Maloney made a very important point: the 
Results Act was in fact born in bipartisanship. It has been 
enthusiastically embraced by both parties, and the 
administration from both parties, and legislators from both 
parties. And, I really think we all ought to always understand 
that we have a community effort here, and that we are all 
trying to learn new skills and to implement new process and new 
procedures for the very purpose of making this Government 
perform more effectively and achieve more satisfying and more 
verifiable results for the American people. This is very likely 
to be the best example of good government practices put in 
practice in the government, then anything any of us have seen 
for a long time.
    Certainly, that is not unrelated to the efforts of this 
committee. This is the committee of jurisdiction, and it is the 
committee that I think maintains the effort. Mr. Chairman, I 
want to thank you personally for the efforts of this committee, 
and if I may, in particular, single out Subcommittee Chairman 
Horn for his devotion to this and other legislative efforts 
that do, in fact, lead us in the direction of a more effective 
government, achieving better results for the American people.
    I'd like to just take a quote from Tom Schatz of Citizens 
Against Government Waste, an organization that has been 
diligent in its review of the practices of government for 
years. Mr. Schatz said: ``While the Results Act is not a name 
that generates immediate excitement, it will, if properly 
administered and enforced by Congress, deliver the most 
significant level of accountability of the use of tax dollars 
in American history.''
    I think we ought to focus on what he said there for just a 
moment: if properly administered through the executive branch 
and through the agencies of Government, and of course enforced 
by Congress. This should not be seen as an adversarial 
relationship, and, indeed, I do not perceive that it is being 
worked out as an adversarial relationship. It is a cooperative 
relationship. We are all in it together, and I think we are 
working well together. I think Mr. Schatz is also right in that 
he understands that knowledge is power, and the power to do 
good comes from a clear understanding of what it is we are 
trying to accomplish, and how well we are doing along the way.
    Now, as we look at that, I am going to focus today on what 
I believe to be the status of our progress to date, and where I 
think we may need to make additional improvements. And, as I 
make that focus, I think you will find that I make that focus 
in equal parts as I look at the agencies; as I look at the 
executive branch; and, as I look at the Congress as well.
    If we are going to regain the public's trust and 
confidence, we must reform bloated, unresponsive, and 
inefficient programs and agencies, and we must achieve a 
smaller, smarter, more common-sense government. Before we can 
intelligently evaluate whether any given policy is wise or 
misguided, whether an agency's budgetary needs justify taking 
more from low-income Americans, mothers, and children, we must 
have reliable, detailed, information about how that money is 
spent. We must demand tangible, measurable goals, and then 
followup to ensure that these targets are reached.
    In a democratic society there will always be disagreements, 
both ideological and otherwise, about the desirability of many 
policies and programs. We will always seek common ground and 
principled compromise, but there is one thing on which we 
cannot compromise: Before the true policy debate can begin, we 
must have reliable, honest information about where our tax 
dollars are going and what they are accomplishing.
    We can no longer afford to give Federal agencies cart 
blanc. The purpose of the Results Act is to make the Federal 
Government accountable. We finally have a tool that allows us 
to discover what the Federal Government is doing, and how it is 
getting it done.
    With the implementation of another law, the Chief Financial 
Officers Act, we could also discover: How much does it cost? 
Isn't it refreshing to think that we are now stopping to ask 
the inane question, whether or not programs are spending all 
their money, and instead we are asking: Is the program 
producing results, as judged by honest, objective performance 
measures?
    We are witnessing more and more congressional attention to 
using the Results Act as a tool of enhancing accountability. We 
have counted 23 congressional hearings on the Results Act since 
February, and including today, where Jim Talent's Small 
Business Committee is having one, as well as Tom Ewing's 
Agriculture subcommittee having one.
    Today, more and more Members are seeing the value of 
building performance standards into their authorizing efforts. 
I was particularly surprised by Denny Hastert and Rob Portman's 
leadership in this regard, as they moved the drug czar 
reauthorization legislation recently, with six specific targets 
and goals. In that instance, we not only legislated policy, we 
insisted on a measuring stick to the achievement of result. 
This is how we can all use the Results Act principles as we do 
our legislative work, clarifying what Congress expects each 
program to achieve to the American people.
    A perfect example of how the act complements and enhances 
congressional oversight is the Results Caucus. The Results 
Caucus is bipartisan, and it is headed by Pete Sessions. It is 
dedicated to resolving specific management problems targeted by 
GAO's high-risk list. Pete Sessions, and many of our 
colleagues, are tackling specific problems of waste, fraud, and 
error through this caucus, and I am proud, as a Texan, to watch 
Pete's work through this caucus.
    Committees have invested much time and effort in 
congressional consultations on strategic plans, and I commend 
the fine work of all who participated. This effort involved 
virtually every House committee, including authorizers, 
appropriators, and budgeteers. Your committee, Mr. Chairman, 
and Mr. Horn's subcommittee, played a particularly important 
role. Your committee work focuses on solving problems, 
improving Government management, exerting focused congressional 
pressure, and just plain old ``rolling up the sleeves and doing 
hard work.''
    We have conducted this effort on a bipartisan and a 
bicameral basis, and we are pleased that so many of our 
colleagues are joining in the effort. We have received 
excellent support from GAO, and from the Congressional Research 
Service. We have worked closely with Frank Raines and his staff 
at OMB. Judging from the quality of the strategic plans we have 
now seen, we intend to work even more closely with them from 
now on. I am convinced that these efforts are worthwhile. 
Progress is being made, and we must continue.
    Last time I testified before you, Mr. Chairman, was in 
February. We talked about the promise of the Results Act and 
our expectations for making it work. Department by department, 
program by program, we found that the first round of strategic 
plans demonstrates how challenging it is to implement the 
Results Act, and how far we have to go. It also underscores the 
importance of sticking to the task. To invoke a cliche, the act 
really does involve fundamental ``cultural change.'' And, Mr. 
Chairman, I talked about that the last time I was here.
    We should all have, one, a modicum of patience, 
understanding it is hard for many of us. In many of our roles 
in our lives, as my daddy told me when I was a boy, it is tough 
to teach an old dog new tricks. And, there will be resistance; 
there will be foot-dragging; there will be disbelief. But, 
frankly, I think the agencies have done a great deal to 
demonstrate in themselves that you can overcome all of these 
factions of inertia. Should we be satisfied? No. But, we should 
also be appreciative that a great many people in this town have 
already demonstrated that they have a great deal of willingness 
to learn new and better ways of doing things against the grain 
of all their experience.
    By the same token, I think we should be impatient. It seems 
almost insane to say we should be both patient and impatient. 
We should also recognize that the purposes to which we can put 
this legislation's full implementation are important enough 
that we must always be prodding, poaching, even nagging, to get 
everybody further down the line.
    There is good news. Nearly all congressional committees 
have become involved in consultations about agencies strategic 
plans. Congress received nearly 100 strategic plans. The 
principles of the Results Act were shown to work--you get what 
you measure--by Congress telling OMB and agencies how we could 
score their plans using 10 criteria; we did see improvement in 
these 10 areas. Some plans were closer than others to meeting 
the mark. Transportation's and Education's plans were the most 
impressive, although they still showed some gaps. Agencies had 
great difficulty developing their strategic plans. They are 
much more used to dealing with process than results. They are 
very important to us. They are much more comfortable measuring 
how many inspections they conduct, how many regulations they 
issue, and how quickly they spend our money, than they are at 
trying to access what all this accomplishes for the real 
benefit of the American people.
    The bad news is: We still have a long, as I said, have a 
long way to go. Next week Chairman Burton and I, along with 
some of our House and Senate colleagues, will issue a report 
that gives out final grades on 24 of the nearly 100 final 
strategic plans that were submitted on September 30 to the 
Congress, in accordance with the Results Act.
    This report will give credit where credit is due, and show 
examples of the problems we have found. We will also suggest 
next steps as we approach the February submission of President 
Clinton's first-ever governmentwide performance plan and the 
agency performance plans that will accompany their budget 
submission and link to them.
    As I have said, making sure that we get the maximum results 
from the Results Act will not be easy. The first round of 
strategic plans was quite disappointing, for the most part. 
This makes it all the more important that the administration, 
OMB, and the agencies have a concerted effort to produce much 
higher quality performance plans next February. Agencies are 
going to be watching for the President's governmentwide 
performance plan, due in Congress in February.
    Most agencies also face massive data capacity problems that 
threaten their ability to produce and provide decisionmakers 
with reliable performance information. Even the best strategic 
or performance plan will be only a paper exercise unless the 
agency can back it up with good data. I was surprised to learn 
yesterday that Frank Raines does not think this is an immediate 
problem, and that our scoring of strategic plans should not 
include any discussion of data credibility right now. I can't 
be more strongly in disagreement with Frank on that point. I 
believe that the administration, the OMB, and we, together, 
need to tackle this problem head-on, and solve it 
expeditiously, or the act will risk being a failure.
    More Members must get involved. If I had my way, I'd like 
to see every congressional committee with jurisdiction over 
departments, agencies, or function review the policy 
implications that are in the new strategic plan. Although our 
review to date had to focus on compliance, not policy, the time 
is right for Congress to tell the Government whether they are 
headed in the right or wrong direction. We need to ask 
fundamental questions such as: Is it clear where the agency is 
headed for the next 5 years? Is it going in the right 
direction? Are its goals and measures credible and results 
oriented, and do they make sense? Do they fulfill important 
Federal responsibilities, or are they more appropriate for 
other levels of government, or for the private sector?
    We need to integrate Results Act information into our basic 
legislative responsibility. When Congress considers program 
reauthorization, we need to ask what concrete results has the 
program achieved? Are they worthwhile and cost-effective? Is 
there a better way to provide this service?
    When Congress considers appropriations, we need to ask 
whether the agencies' budget requests are proficiently tied to 
the results of its program, and what funding levels these 
results merit?
    When considering proposals to create new programs, we need 
to ask how these proposals relate to existing programs and 
resources dedicated to the same or similar goals, and why 
existing programs can't be restructured or improved to produce 
the new desired outcome, without layering new programs on the 
old programs?
    Finally, we need to integrate Results Act information into 
our oversight activity, as we hold agencies accountable. While 
we can't legislate good management, we can provide the right 
incentive.
    In summary, every dollar spent by the Government is a 
dollar earned by someone else. Taxpayers deserve a Government 
that doesn't waste their hard-earned dollars. You and I have 
within our capability a chance to ensure honest data for 
smarter decisions.
    In closing, Mr. Chairman, let me observe an Armey axiom: 
Nobody spends somebody else's money as wisely as they spend 
their own. The Federal Government is an example of that. With 
proper implementation of the Results Act, we may actually be 
able to be the first best example of a reversal of an Armey's 
Axiom, and I thank you, Mr. Chairman.
    [The prepared statement of Hon. Richard K. Armey follows:]
    [GRAPHIC] [TIFF OMITTED] 45404.014
    
    [GRAPHIC] [TIFF OMITTED] 45404.015
    
    [GRAPHIC] [TIFF OMITTED] 45404.016
    
    [GRAPHIC] [TIFF OMITTED] 45404.017
    
    [GRAPHIC] [TIFF OMITTED] 45404.018
    
    Mr. Burton. You did not plagiarize that axiom, did you?
    Mr. Armey Did I?
    Mr. Burton. I don't think you did; I just thought I would 
throw that in. Before we go to questions----
    Mr. Armey. It is very hard, Mr. Speaker--or Mr. Chairman--
--
    Mr. Burton. Oh, you promoted me there.
    Mr. Armey. Let's don't get started with that again. 
[Laughter.]
    I was just going to say, a person of my vast experience and 
attentiveness is never sure for sure whether, indeed, I created 
the line myself or did get it from somebody else.
    Mr. Burton. I got you.
    Before we go to questioning of the majority leader, Mr. 
Hastert?
    Mr. Hastert. I thank the chairman, and certainly thank the 
chairman for holding this hearing today. I would first like to 
thank our majority leader also for appearing before us; this is 
an important issue.
    Mr. Leader, you have led this Congress in many ways, and 
scored many important successes for the American taxpayer, but 
that said, I think one of the most important contributions has 
been legislating the iron-clad assurances that Federal agencies 
become accountable. Your leadership and certainly tireless 
insistence on results are an example, and your role as the 
champion of the Results Act is an enduring victory for the 
average American taxpayer.
    At minimum, the Results Act requires each Federal agency to 
submit to Congress an initial strategic plan outlining in black 
and white their mission, goals, and objectives, in addition to 
stating a plan to achieve those goals, and most importantly, a 
performance measurement system to ensure objective progress 
toward meeting those goals. This is not only good business 
practice, it represents a concrete way for Congress to ensure 
that hard-earned taxpayer dollars are not frittered away on 
bureaucracy or wasted on fruitless projects. Your efforts will 
take us a long way toward eliminating duplicative and 
ineffective programs, and properly supporting proven success.
    The Federal Government currently employs almost 3 million 
people and spends approximately $1.6 trillion annually. With 
such a large and unaccountable bureaucracy, fraud and abuse are 
bound to flourish. And, as you stated in your interim report, 
taxpayers pay more than five times what the private sector pays 
to build for example, houses. This kind of waste cannot 
continue, and I am happy to say that such spendthrift days are 
now over, since we have had the Results Act.
    As you know, I have taken privileges and principles of the 
Results Act and applied them specifically to the war on drugs. 
We have just passed a bill reauthorizing the drug czar's office 
that includes setting hard targets and specific goals for that 
office to achieve. It requires the Office of National Drug 
Control Policy to report to Congress frequently regarding 
progress toward the goals of genuinely winning the drug war, 
and moreover, as required by the Results Act, that agency must 
justify each and every taxpayer dollar appropriated for the 
counter-drug effort. We are asking the same thing of that 
agency, that we are asking of the rest of the Federal 
Government--in a word ``accountability.''
    Again, I commend you, Mr. Armey, our majority leader, for 
taking hold of the reins. When agencies were less than 
enthusiastic about the Results Act, you motivated them to 
comply, and when the draft strategic plans proved deficient, 
you pushed the demand better. When other issues took the 
attention of Congress, you persisted, and kept this act at the 
forefront. I would like to thank you for your perseverance, 
your ingenuity, and your principal leadership, and to borrow a 
phrase, ``your results.'' Thank you very much.
    Mr. Burton. Thank you, Mr. Hastert. Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    Mr. Leader, we are pleased to have you here, and we 
appreciate your presentation. The Results Act was passed with 
broad bipartisan support because we want to make Government 
more efficient. That is a goal that we all share.
    I was struck by how Congress would rate if the same 
criteria were applied to us. One of the goals of the Results 
Act is to eliminate waste and duplication. In your report, Mr. 
Armey, you noted that, and I am going to quote: ``The Federal 
Government is plagued by duplication and program overlap. We 
cannot afford to have multiple agencies doing essentially the 
same thing, or working at cross-purposes with one another. 
Departments seem rarely to coordinate within their own walls, 
much less coordinate with other agencies. As a result, 
duplication of program overlap in the Federal Government are 
widespread.''
    That is a distressing reality, but I want to draw your 
attention to the Congress, because our committee is doing a 
campaign finance investigation, and Senator Thompson is doing a 
campaign finance investigation; the Justice Department is doing 
one; we have the independent counsel, Kenneth Starr, conducting 
similar inquiries. As Representative Condit has repeatedly 
pointed out, this duplication wastes millions of taxpayer 
dollars; but, this isn't the only example.
    Last week, Chairman Burton issued subpoenas to the 
International Brotherhood of Teamsters in the Ron Carey 
campaign. Now, it is, of course, important for Congress to 
investigate this, but we have Senator Thompson investigating 
it; we also have in the House, Representative Hoekstra, who is 
the chairman of the Education and Workforce Committee's 
Oversight and Investigation Subcommittee. He is conducting an 
investigation, and he has already held two hearings on this 
issue.
    There are more examples of duplication. Now, both the House 
and the Senate are investigating why the White House did not 
discover the Clinton videotapes any sooner, and Chairman Burton 
said he intends to depose as many as 60 witnesses. It is 
appropriate to investigate, but Chairman Thompson's 
investigation is virtually identical; he is deposing the same 
witnesses, with the same questions, and reviewing the same 
documents.
    One of the frustrations for many Members of the minority is 
this double standard that the Republicans seem to be following, 
and I want you to comment, because we have a lot of concern 
about duplication in the agencies, but we seem to ignore 
duplication activities under our own roof. I, for example, sent 
a letter to the Speaker saying, ``Why don't we have one 
committee, House/Senate, to do the campaign and finance 
investigation?'' I never even got a response to that letter. 
The majority spent $40,000 in this committee to create a data 
base, and rather than share it, the minority had to go spend 
$40,000 to recreate the data base. Recently, our committee had 
staff go out to get computer disks. They took 2 days to do it; 
spent hundreds of taxpayer dollars. In fact, it was a total of 
six working days, and staff time was wasted, because they could 
have easily had this mailed to our committee.
    Now, you supported the Congressional Accountability Act, as 
did I, that forced Congress to live under the same laws we 
impose on the private sector; it is just as easy to waste 
taxpayers' money if it is somebody else's money, whether it is 
at the administrative branch or the legislative branch, it 
appears. I am wondering if you think the American people would 
benefit if the Results Act were applied to Congress, as well, 
so Congress was held accountable for achieving results 
efficiently, in the same way we are trying to hold agencies 
accountable--a goal I think we would want for both 
institutions.
    Mr. Armey. I appreciate your observation. I might first 
make this point: The entire House and one-third of the Senate 
is held accountable every 2 years to the American people at the 
polling place.
    We have divisions of authorities and responsibilities, and 
it is a fascination to watch it. It all began with the Founding 
Fathers having created a bicameral legislator along with an 
executive branch. I have looked at that, and I generally 
applaud the wisdom of the Founding Fathers. On occasions, when 
I look at the Senate, I wonder if perhaps maybe a unicameral 
legislature might have been a better idea, but there is a 
House; there is a Senate; they will do that. Within our 
respective bodies we do have divisions of authorities and 
responsibilities, and it is often contested. I am just sitting 
here looking at Jack Brooks' portrait. Only last night we 
watched Jack Brooks and John Dingell musing about their many 
lively battles over jurisdiction over the years. Certainly, the 
sense of multiple jurisdictional rights and obligations among 
the different committees of the House is not a new game; it has 
been going on since long before I was here, and I suspect it 
will go on long after I was here.
    The last election cycle, I believe, probably did, in fact, 
generate enough oversight and investigation opportunities to 
keep just about everybody you have cited fully employed for a 
long time. So, it just seems to me that what we have found is 
the House with its apparatus, the Senate with its apparatus, 
and the Justice Department with its apparatus. I've said, if we 
all swing full-time, full into gear, we might be able to cover 
all the ground that is out there for us to look at.
    Mr. Waxman. Mr. Armey, you advised us that we should be 
patient and impatient, but I think you are being too patient 
when we are wasting the taxpayers' dollars in the Congress, 
while you are impatient with the executive branch. I think we 
ought to be impatient wherever we see taxpayers' dollars 
wasted. I appreciate your answer.
    Mr. Armey. I appreciate that, and also I should acknowledge 
that I have been very patient with the tone of your question, 
too; so it was evened up.
    Mr. Waxman. Well, I think that's appropriate, because you 
are making a presentation to the committee and each of us can 
ask questions, and I think it is a legitimate question I raised 
with you.
    Mr. Armey. I do.
    Mr. Burton. We thank the gentleman.
    We have a vote on the floor; it is going to be followed, I 
understand, by final passage, I believe--I can't read your 
writing, but anyhow it's going to--[laughter]--we have to teach 
these young people how to write. Did they take penmanship in 
your school? Oh, you wrote that, OK. [Laughter.]
    That's a college professor.
    The House--the House, see, you've got me thinking as the 
Speaker. The committee will stand in recess for about the next 
10 to 15 minutes.
    [Recess.]
    Mr. Burton. The committee will come back to order. I want 
to apologize for the apparent confusion. There is going to be 
another vote on the floor in just a few minutes, and as a 
result, some of the Members are staying over there for the 
vote. What I think we will do is go ahead and start with Mr. 
Raines. If you don't mind, Mr. Raines, we will get you sworn in 
and start receiving your testimony, and then as the vote takes 
place, I will go over and vote and have Mr. Horn take the 
Chair, while I am gone, or Mrs. Morella, one of the two. So, 
while you are standing, let me swear you in.
    [Witnesses sworn.]
    Mr. Burton. Thank you. Do you have an opening statement, 
Mr. Raines?

 STATEMENT OF FRANKLIN RAINES, DIRECTOR, OFFICE OF MANAGEMENT 
                           AND BUDGET

    Mr. Raines. Yes, Mr. Chairman, with your permission I would 
like to make a few brief remarks, and I have a written 
statement that I would like to have placed in the record.
    Mr. Burton. Without objection.
    Mr. Raines. Thank you.
    Mr. Burton. Can you pull the microphone a little bit closer 
to you, Mr. Raines, please?
    Mr. Raines. Sure. I am pleased to be here this afternoon to 
testify on the implementation of the Government Performance and 
Results Act [GPRA]. If I may, let me start by first 
acknowledging the strong support we received in implementing 
this act from this committee, and particularly the Subcommittee 
on Government Management, chaired by Mr. Horn.
    As you may know, Mr. Chairman, the majority leader and I 
have become regular correspondents on the Results Act. And I 
know this is his second appearance this year before your 
committee, which is evidence, I believe, of his commitment and 
interest in making this act work for the Federal Government and 
the American people. We appreciate and welcome his interest, 
because, frankly, neither OMB nor the agencies collectively can 
make this act work if Congress is not engaged.
    Let me also acknowledge Jim Hinchman's leadership and his 
staff at GAO, who have worked extensively on GPRA for many 
months with both Congress and ourselves on GPRA.
    This afternoon I am pleased to report that we are on 
schedule with the implementation of the Results Act across the 
Government. The first real products of the law are at hand, and 
this is an opportune time to assess where we are, and what lies 
ahead.
    Let me briefly review what the Results Act requires of 
agencies at this point. The deadline for agencies to send their 
strategic plans to Congress and OMB was exactly 1 month ago. 
These strategic plans describe what an agency will do and how 
it will do it. A strategic plan charts both a course of action 
and a level of accomplishment for each agency through the first 
years of the next century. Taken together, the strategic plans 
describe what our National Government intends to do and 
accomplish over this period. They are also the foundation for 
the annual performance plans, which set out specific goals that 
an agency will achieve in a fiscal year.
    Strategic plans from every major Cabinet agency, 95 in all, 
were sent to Congress and OMB 4 weeks ago. We made a commitment 
earlier this year to deliver agencies' strategic plans that 
were both timely and compliant with the statute, and we have 
delivered on that commitment.
    Getting these plans done and delivered on time was no minor 
achievement. These plans are the product of a lot of hard work 
in the agencies, and they also reflect a significant effort of 
the staff at OMB, and many staff here on Capitol Hill during 
agency consultations.
    The first set of agency annual performance plans have been 
received by OMB. These plans are for fiscal year 1999, and we 
are currently reviewing and using them as we prepare the 
President's budget for the next fiscal year. The annual plans 
contain measurable goals of what will be accomplished in a 
particular fiscal year. To a large extent, the goals will 
describe the progress, often incremental, the agency is making 
in achieving the long-term goals and objectives that are set 
out in its strategic plan. And as part of our review of these 
plans, we are analyzing the agencies' capacity to collect data 
to support goals.
    Annual plans define what we will get for the money we will 
spend, not only in terms of Government products, services, and 
benefits, but how well these are sustained, produced, and 
delivered. In these annual plans, the performance goals and the 
target levels for those goals are matched to the budget request 
of the agency. Agencies will make any necessary changes to the 
performance goals later this year to reflect the President's 
decisions on their budget request. Next February, after the 
President transmits his budget to Congress, the agency annual 
performance plans will be sent to you.
    The strategic planning required by the Results Act is 
simple in concept, but difficult to do well. OMB's own 
experience spans 2 years, and involved, in some manner, nearly 
all of OMB's staff. When we committed to the delivery of timely 
and compliant strategic plans from the agencies, we also 
predicted that all the plans would not be of uniformly high 
quality. Some are better than others, and that is to be 
expected.
    For every agency, the development of these plans has been 
an iterative process. The initial drafts were usually 
incomplete; various plan elements often were mismatched; and 
goals were poorly described. But with each successive version, 
the plans improved. Perseverance and hard work paid off.
    Each plan became better in different ways, so it is very 
difficult to make any universal characterizations about where 
changes occurred or why. Certainly, improvements in the style 
and clarity of presentation were widespread. Perhaps the most 
prevalent problem was the difficulty agencies had in describing 
the linkage between their annual performance goals and their 
long-term goals. Over this past summer, as agencies prepared 
their fiscal year 1999 performance plans containing their 
annual goals, this led to a marked improvement in the 
descriptions of this linkage.
    As I noted earlier, we believe that all the plans now 
address the required elements for a strategic plan. GPRA 
requires that strategic plans be revised and updated at least 
every 3 years. OMB's guidance allows agencies to make minor 
adjustments to a strategic plan in interim years and to use the 
annual performance plan to identify and describe the minor 
adjustments. A strategic plan should be a dynamic document, not 
set in stone, so that it fails to reflect significant changes 
that have occurred or are emerging, and not ever-changing in 
its revisions so that it is useless as a means of managing or 
directing any program.
    This first set of strategic plans is not the only set of 
strategic plans that agencies will produce under the Results 
Act. We should expect that these plans will be refined, 
enhanced, and be a better product in the future. GPRA does not 
intend that strategic plans be hollow instruments. For the 
first time, agency strategic plans are translated, on a yearly 
basis through the annual performance plans, into a program of 
action and accomplishment funded by the budget. The best test 
for the quality of these strategic plans will be found in the 
annual performance plans you receive next February, and how 
well these annual plans move the agency toward achieving its 
long-range goals and objectives, and, ultimately, its mission.
    The Results Act requires agencies to consult with Congress 
when developing a strategic plan. It also allows stakeholders, 
customers, or other agencies, to provide the agency with their 
views on the plan. This GPRA provision made development of 
strategic plans a very open, public process.
    OMB required each agency to summarize its consultation and 
outreach in its letter transmitting the strategic plan to 
Congress. And this letter was also to include a summary of any 
substantive and germane views that disagreed with the 
programmatic, policy, or management course of action presented 
in the submitted plan. These requirements helped underscore the 
importance of the consultation process in the course of plan 
development.
    For most agencies, the congressional consultation was quite 
extensive, especially with the House committees and the various 
intercommittee teams that were established to facilitate 
consultation. Agencies generally have reported that this 
consultation was constructive and helpful, and has led to 
improvements in their plans.
    With GPRA, we have the opportunity to change the nature of 
the conversation from one which now focuses on how much money 
we are providing, or inputs, to one oriented more toward what 
the money will buy, or outcomes. Examples of such an outcome 
is: lowering the number of highway traffic deaths. Results from 
GPRA performance measurement pilot projects also show how this 
can work.
    Budgeting under the regimen of the long-term Balanced 
Budget Agreement is essentially a zero-sum game. Within the 
discretionary spending cap, choices about which programs 
receive funding increases, remain level-funded, or shrink, 
should increasingly be governed by performance. While 
performance will never be the only element in the process, 
analysis of performance should become a major factor in 
decisionmaking. We are mindful that in our use of performance 
information when making budget decisions, that that will never 
be the only relevant factor. Policy judgments will continue to 
be a factor, and in some cases, the prevailing factor.
    We must avoid using GPRA only as a budgetary cleaver. One 
response to poorly performing programs may be to cut or 
eliminate resources, but perhaps with more money allocated 
differently, or new managers, or a different management 
approach, performance of these programs would improve. When 
faced with poor performance, we must first understand the 
reasons for it, and then apply the appropriate remedy. If the 
automatic consequence of poor performance is to end the 
program, then soon the only performance reported will be good 
performance--not that every program will, indeed, be effective 
and efficient, only that the reports will indicate such. So, it 
will be important for us to be discerning and critical in our 
assessment of program performance, and prudent in the courses 
that we take.
    Mr. Chairman, that concludes my statement, and I would be 
pleased to respond to any questions that you or other members 
of the committee might have.
    [The prepared statement of Mr. Raines follows:]
    [GRAPHIC] [TIFF OMITTED] 45404.019
    
    [GRAPHIC] [TIFF OMITTED] 45404.020
    
    [GRAPHIC] [TIFF OMITTED] 45404.021
    
    [GRAPHIC] [TIFF OMITTED] 45404.022
    
    [GRAPHIC] [TIFF OMITTED] 45404.023
    
    [GRAPHIC] [TIFF OMITTED] 45404.024
    
    [GRAPHIC] [TIFF OMITTED] 45404.025
    
    Mr. Burton. Thank you, I want to ask you a couple of 
questions, Mr. Raines, before I have to run and vote. The first 
one is, you eluded to the prospect that there might be some 
budget cuts for agencies that do not perform well, or do not 
report in accordance with the Results Act in a timely fashion. 
That is one of the things that's a possibility because the 
leadership of the House, and I think in the Senate both, are 
very concerned that the Results Act be followed in a really 
fair and timely manner.
    Now, one of the things that I was going to ask you is this 
act was passed in 1993, and I was looking at the comparisons 
between the first time we issued a report and now, and while 
there has been some improvement, there has not been any really 
marked improvement, except possibly in the Department of 
Transportation, Department of Education, NASA, and maybe the 
National Science Foundation. Other than that, there has been 
marginal cooperation from these agencies. Have you talked to 
them and really pushed them to comply with the Results Act?
    Mr. Raines. Mr. Chairman, from the beginning of my tenure 
in this job, this has been a continuing theme of mine when I 
talk to agency heads. I have talked to the Cabinet about this. 
I have talked to the CFO Council about it. I am somewhat of a 
broken record on the subject that performance in not only 
performing--performance on the GPRA requirements, but 
performance itself will be very important factors in any 
recommendations that we make comparing funding.
    Mr. Burton. Well, that being the case, if they are not 
listening to you, and you're the fellow they ought to be 
listening to, what do we have to do to get their attention? I 
mean, do we have to use the budgetary bludgeon to get their 
attention? Do we have to cut spending in some of these programs 
because we are simply not getting compliance in the Results 
Act?
    Mr. Raines. Well, Mr. Chairman, I actually think you are 
getting their attention. It's a big government, and it has many 
masters, and getting the attention of the Government in a way 
that changes behavior is not easy. And I would say that if you 
compare the implementation of the Results Act to prior efforts 
to guide Government decisionmaking--ranging from program 
budgeting, program planning and budgeting systems back in the 
1960's, to zero-based budgeting in the 1970's, to management by 
objectives in both the 1970's and the 1980's--I believe that 
the GPRA process will stack up well against those, if you look 
at the real effect on the permanent Government, not simply the 
things that might be said by appointed officials. If you look 
at how much it is beginning to seep into the permanent 
Government, to the folks who will be here no matter what 
administration is in power----
    Mr. Burton. Career employees.
    Mr. Raines. I think it is beginning to make a difference, 
and that is----
    Mr. Burton. Well, I hope that you'll convey, at least from 
the Chair of this committee, that we are very serious about 
that, and the leadership in the House and I believe the Senate 
are very serious about that. And if some of the Cabinet 
officers are not able to convey to their subordinates in these 
various agencies regarding compliance, they are very likely to 
see some attempts to make some adjustments in their budgets, so 
that we will get their attention.
    With that, Mr. Horn, would you take over the Chair? Thank 
you very much.
    Mr. Raines. Thank you.
    Mr. Horn [presiding]. We appreciate your coming, Director. 
Let me just go through a few questions with you. Given the 
discussion that you heard following the questions to the 
majority leader and given some of the majority leader's 
comments, what's your thinking on requiring revised strategic 
plans next year, or every year? How do you feel about it? We 
have heard of 5-year plans in the Soviet Union, and 5-year 
plans in the People's Republic of China. They were rather rigid 
plans, and the question would be, what's your reading now, as 
you have looked over a number of these plans?
    Mr. Raines. Well, my view is that strategic plans should 
not change dramatically over short periods of time; otherwise, 
they cease to be strategic plans, and they simply become 
tactical documents that are being changed to meet the pressures 
of the day. I would put far more emphasis on the annual 
performance plans. This is where an agency is committing to 
actual performance within a relevant period that managers on 
the ground can effect. Those plans can be crafted to meet 
changing conditions as they may appear.
    Now, of course, there will be a need to update strategic 
plans. The President, no doubt, will establish priorities that 
may not have been thought as being priorities earlier by an 
agency. Congress may pass a major piece of legislation 
establishing a brand-new priority. So there will have to be an 
evolution.
    Just an example: In the Balanced Budget Act, the Congress 
created a new program for children's health that will reduce 
the number of kids who do not have health care coverage. It was 
a major priority to the President, it was included in the 
budget negotiations, a brand-new program. If we had had a 
strategic plan outstanding, of course, that plan would have to 
be modified to take that into account. But I would discourage 
effort going into annual modifications of the plan, because I 
think that it does detract from the plan, and for another 
reason. I have set as my highest goal in this job not getting 
our planning right, or our budgeting right, but getting our 
execution right. I think that we have an imbalance in the 
attention by top-level officials between execution, planning, 
and budgeting. So I would like to try to move their attention 
more toward execution and implementation, and I would hate to 
see a planning process consume all their time, and prevent them 
from focusing on execution.
    Mr. Horn. As you have reviewed these plans, did any 
particular form of measurement as to the progress the agencies 
and Congress and you and the President would see--how much 
progress has been made? Did there seem to be any standard that 
made some sense to you that might be applicable across a number 
of agencies?
    Mr. Raines. Well, I think the plans, they were different, 
and I think, quite frankly, the test that we applied to them 
varied. For example, the scorecard the House used included some 
categories for which the agencies did not know were going to be 
categories they would be judged by. But on the other hand, a 
number of agencies responded to those categories and they 
produced a plan; their final plan encompassed some of the items 
that those categories covered, and therefore, was responsive to 
an interest that the House, in particular, had in those 
matters. And, so, I think it varies generally.
    We even tried to encourage the agencies to look at other 
agencies' plans to compare them to see when people say one plan 
is a good plan and theirs isn't quite as good, what does that 
mean? In fact, just a couple of weeks ago I met with the budget 
officers from the major agencies, and went through with them 
our impressions of their plans, as well as our impressions of 
the budget submittals they just made. The obvious purpose of 
that is that we would like to see a little competition going on 
among the agencies to see who gets recognized for having a 
sound and solid plan, because, I think those kinds of things 
will help have continuous improvement in the agencies 
responsiveness.
    Mr. Horn. Should agencies have satisfaction surveys that go 
to their clientele, as to how they have been treated, how their 
satisfactions are? That would be normal practice in many 
organizations. What do you feel about applying that to the 
executive branch?
    Mr. Raines. Oh, I think that measuring customer 
satisfaction is an important management tool, and particularly 
where the customer is the general public. I think it is a very 
valuable tool and a necessary tool. Indeed, a number of 
agencies already try to measure customer satisfaction. It has 
been a major part of the National Performance Review in the 
effort to improve customer service, is to ensure that they 
actually ask the customer how they are perceiving the service, 
and not simply measuring against the agency's own internal 
process.
    Mr. Horn. When I was in the California State University 
system as a president, I worked for 5 years to get our trustees 
to adopt almost what New Zealand is doing. That was to have 
your executives on a campus, say 110 in the management class, 4 
or so different classes, get rid of the civil service positions 
we had inherited from the Federal Government, because they made 
the mistake of hiring people from the Civil Service Commission 
when they were founding that establishment. And we went to 
employment contracts, and we went to a broad salary scale 
between $20,000 and $100,000 with overlaps in broad categories, 
and in the contracts we spelled out: What are you going to 
accomplish this year in terms of either regular initiatives, 
and how do we know, and other additional initiatives? Do you 
think that would be a useful way to go in the Federal 
Government, with either the Senior Executive Service, or 
everybody down through the lowest management level, which could 
be a 9, 12, 14 even, given the situation and how they are 
organized? What do you feel about that?
    Mr. Raines. Well, I think there ought to be a close 
connection between the performance plan and the annual 
assessment of employee performance. We need to establish, at 
the beginning of the year, what the expectations are, have 
those tied to the performance plan, and then when we measure 
how the agency did, to see whether or not that individual 
manager was making the kind of contribution that was required. 
It is too frequent, in both Government and business 
organizations, as well as in nonprofit organizations, that the 
organization doesn't do well, but everybody gets very high 
ratings. And, so I am a believer of tying these together. 
Indeed, within OMB we have made it very clear that with our own 
strategic plan and performance plan that will be tied to our 
rating process and to our annual awards and bonus process, and 
we will be looking at that through our entire process, because 
I strongly believe you have to--if these incentives are to 
work, you have to run them through your entire performance 
review system.
    Mr. Horn. When Mr. Koskinen was up here for his last 
appearance, I asked him, how many people within OMB are 
concerned with management or involved in management advice? He 
said, ``Oh, 540.'' I assume that is your full personnel 
strength. I thought that answer--and I told John that--was 
nonsense. And the question is, how many people in OMB are 
directly concerned with management issues and can advise 
Cabinet officers and departments and agencies on management 
processes?
    Mr. Raines. Well, I think other than overestimating the 
number of people we have at OMB, I think John was not far from 
the mark, and let me tell you why. We have taken to heart the 
integration that OMB 2000 caused in bringing together our 
management resources and our budget resources into our resource 
management offices. This was a reorganization that I inherited, 
but if I hadn't inherited it, I would have done it myself, 
having been in OMB before, when we had a fairly strict 
separation between management and budget. And we have some 
examples now of how this can be effective.
    The thing I have learned in management in the public sector 
and the private sector is that command and control is not 
sufficient to induce change in management practices. You need a 
number of levers to operate, and OMB doesn't have all the 
levers I would like, but we do have a few. But they take many 
forms. In resource management offices, what we are able to do 
is to use budgets, FTE allowances, determinations on space, 
regulatory approval process, clearance process on legislation, 
a variety of tools to ensure that agencies are beginning to 
turn their attention to what we consider to be the most 
important management issues.
    We've begun our Director's review process, which happens 
every fall, leading up to our recommendations to the President 
regarding his budget. I can tell you every one of these reviews 
is suffused with management issues, and in a way that was never 
the case when I was in OMB before. So, it is a matter that I 
think everybody in OMB understands, that in order to be 
successful, you have to be adept, not simply in analytical 
methodologies and tools, but you have to know something about 
management. I have encouraged those who do not feel that they 
have sufficient grounding in management to seek additional 
training to work with our specialists in management, who work 
under the Deputy Director for Management, and indeed to get out 
of OMB and let's go visit some places that we think know 
something about what we are working on.
    In fact, I led a field trip like that just a couple of 
weeks ago to a private firm that was working on a similar 
problem, and we brought people from the budgetary side, from 
the regulatory side, from the management side, all of us there 
trying to learn about different techniques that can be applied 
to management problems.
    Mr. Horn. This committee has spent a lot of time on the 
year 2000 situation. Who is your person in charge of that to 
coordinate efforts within the executive branch?
    Mr. Raines. Sally Katzen, who is the Administrator of OIRA, 
has been ably leading that effort, and has been providing real 
guidance and leadership throughout the executive branch and 
throughout OMB to ensure that we get greater and greater 
attention to solving that pressing problem.
    I might even point that as another example in answer to 
your earlier question. We are attempting to use as many levers 
as we have in OMB to ensure that agencies pay attention to this 
problem in a way that not only this committee would like to see 
us do it, but as the President as well. And those will include 
ways that we can influence agency behavior regarding their 
budget resources, as well as influences through our various 
management counsels.
    Mr. Horn. Mr. Davis, 10 minutes on questions for the 
witness.
    Mr. Barrett. Mr. Chairman, Mr. Chairman?
    Mr. Horn. Oh, I am sorry, I am sorry. Mr. Barrett.
    Mr. Barrett. I would hate to have us measure our efficiency 
of results here. Thank you, Mr. Horn, I appreciate that.
    Mr. Raines, welcome.
    Mr. Raines. Thank you.
    Mr. Barrett. We have had a lot of discussion this afternoon 
about the Results Act, and I am a supporter of the Results Act. 
I think that it does make sense to set goals and to have 
expectations that can be met. I think, though, we have gotten a 
little off-track in our discussion and I am sorry Mr. Armey 
isn't here, because I would, frankly, rather address some of 
these concerns to Mr. Armey when he lauded the reauthorization 
of the ONDCP, an issue that I was involved with quite 
intimately as a ranking member of that subcommittee, and I 
would have to say that that is a better example of how the 
Results Act is misused rather than used. Because I think one of 
the worst things that we can do is to set standards or set 
measures or goals that we know we are not going to reach.
    This committee reported a bill that said that we would 
reduce teenage drug use by 90 percent by the year 2002. 
Frankly, I think that if we are talking about goals, I think 
that goal is understated. I would love to reduce teenage drug 
use by 100 percent in the year 2002, but in terms of real 
reality, I think that we would take a different view if the 
person whose head was on a chopping block was the chairman of 
this committee or the majority leader rather than General 
McCaffrey. I think that the Republican leadership in Congress 
is more than happy to put General McCaffrey's head on a 
chopping block, saying that if you don't reach a 90 percent 
reduction in teenage drug use by the year 2002, you are out of 
here, but we can wash our hands of it. I don't think that that 
is leadership; I think that it is political posturing. Fine. If 
we are going to play political games, we are going to play 
political games, but I think when you have a situation where 
the ONDCP calls the targets in the bill arbitrary and 
unachievable, and then we somehow say this is responsive 
government, I think is ludicrous.
    So, I just think somebody has got to say that, that, yes, 
it's fine to play these games, and to say we should have these 
measures--and I think we should--but I think when the agency 
itself says it's arbitrary and unachievable, that all we are 
doing is setting up for a political fight, and if that is what 
we want to do, that's politics in Washington, I can live with 
that. But, let's not pose for the holy pictures and say somehow 
this is good government, when it is basically a dress rehearsal 
for the 1998 or 2000 elections.
    And, I would again daresay that there is no one on this 
committee who would put their career on the line to say that we 
will achieve a 90 percent reduction in teenage drug use by the 
year 2002. I'd love to see it happen, but I think we have to be 
realistic.
    The Department of Defense represents roughly half of all 
discretionary budget money expended by Congress. Its compliance 
with the GPRA is therefore very important. Mr. Raines, do you 
believe that DOD's issued plan adequately addresses the 
suggested improvements that GAO made in its August 1997 report 
on its draft plan?
    Mr. Raines. Well, we have concluded that all of the 
agencies that have sent in plans have met the requirements of 
the act, but I would say that you would find with all of the 
plans as well, including the DOD, that there is some variation 
as against comments the GAO or other commentators may have 
made. DOD actually has had a strategic plan in process for many 
years, through its quadrennial review process that has 
established the goals and objectives for the Armed Forces and 
through their future years defense plan applied budgetary 
resources against those goals and objectives, and they have 
been attempting to drive that down through their organization 
over the last several years.
    So, I would--in direct answer to your question, I think 
that there--and Jim Hinchman can probably give a better answer 
to this--I am sure that there are differences between the 
suggestions that were made and the final effort that the 
Department put in the quadrennial plan, but I think that the 
Department has in that plan established the basics necessary 
for an effective strategic plan for the Department.
    Mr. Barrett. How would you compare the quality of their 
plan, top third, middle third, bottom third?
    Mr. Raines. Well, we haven't really done a quantitative 
analysis as the House staff has done, so I don't think I could 
give you a careful one. I would say that in terms of strict 
compliance with the GPRA, they are not likely to rate in the 
highest category, simply because they have such an entrenched 
system, that getting them to modify that to meet the GPRA's 
specific requirements is going to take some work. And, I don't 
think that's all bad. I think that they have been ahead of the 
rest of the Government in this, and for them to modify their 
own system to meet the GPRA requirements is going to take some 
time for them to make that adjustment.
    Mr. Barrett. Thank you. Thank you, Mr. Chairman.
    Mr. Horn. You're quite welcome. The gentleman from Ohio, 
Mr. Portman, and you are presiding.
    Mr. Portman [presiding]. Why, thank you, Mr. Chairman. You 
know it's interesting, I'm the lowest person on the totem 
pole----
    Mr. Horn. Get as close to the bell as you want, but we have 
some votes beyond that, so we'll be in recess for about 20 
minutes.
    Mr. Portman. I was going to say that normally when you are 
the lowest person on the totem pole, you have plenty of time to 
prepare your questions; in fact, normally you don't get 
questions. [Laughter.]
    This is quite an honor. I'm shocked. [Laughter.]
    I am not going to know quite what to do, but, Mr. Director, 
thank you for being here. I wish my friend Mr. Barrett was 
going to stay around; maybe he will. OK, thanks. [Laughter.]
    Thank you for your time, and I will just ask you a couple 
of brief questions related really to what Tom Barrett was 
talking about, and how the standards that might be set for the 
Office of National Drug Control Policy might mesh with the 
Performance Act, with GPRA and its requirements. I am 
supportive of setting goals; I think it makes sense. What those 
goals are is sort of a matter of some debate, as Mr. Barrett 
has indicated. Some people believe these goals are overly 
ambitious, unattainable, and therefore could be used 
politically. In my view, our challenge is to find goals that 
are attainable. Certainly, we've had a 75 percent reduction in 
drug abuse from about 1979 to 1991. If you look back to the 
1960's, we have had about a twentyfold increase since then, but 
we had about 2 percent of the population that was experimenting 
with drugs. So, there are some standards you can look back to 
historically where we have made some progress. I, frankly, 
believe that we are beginning to make some progress now, slow 
but sure, and it tends to be among the older teenagers.
    But, as you have looked at this, and I know you have got 14 
Cabinet agencies and a lot of other plans to review, and I do 
not expect you to be an expert on ONDCP's, but do you think 
that it does make sense to establish some standards, some 
goals, and if so, how would you assess the goals that are being 
proposed by the House at this point?
    Mr. Raines. Well, we clearly believe that establishing 
goals for the reduction in drug use are important. And, indeed, 
General McCaffrey, in his performance plan, does establish 
goals that he believes, and I believe, are aggressive goals 
that will require an enormous effort, not just by the Federal 
Government, but by all of American society to achieve. So that 
we do believe that those goals are important.
    We had a concern, and continue to have a concern, with the 
House bill passed as to whether the goals that are contained in 
that bill are realistic, and there is a real danger in 
establishing unrealistic goals, and that is that the people who 
are expected to achieve them will simply throw up their hands 
and say, ``Well since that can't be done, I'm not going to try 
to do anything, because I will be judged a failure, no matter 
what I do.'' This is something that we are all going to have to 
pay attention to, whether it's goals that are established by 
departments in their performance plans or goals established by 
Congress.
    It is one thing to set a high aspirational goal; it is 
another to set a goal that is so far beyond capability or 
resources or level of commitment that it becomes simply 
rhetoric. And, I think that is the thing that we have to watch, 
and all of us would aspire to have problems completely 
eliminated, but making dramatic progress on the elimination is 
the first step. We are not going to make them go away tomorrow, 
but if we can have serious progress over the next several 
years, that's moving us in the right direction. And, as we 
achieve on the goals, we ought to keep raising the bar, so that 
we aren't simply aspiring to achieve something we know we can 
reach; we ought to be reaching a little bit beyond our grasp. 
But, there is a serious danger that if you have a goal that 
says you are virtually going to eliminate a problem that has 
never been eliminated in the history of mankind, that people 
aren't going to take that seriously, and therefore, they will 
begin to fall back into old behavior, which is simply to go 
through the motions, and spend the money, and report how they 
spent the money, as opposed to how they have actually achieved 
something.
    Mr. Portman. I would not disagree with your overall 
approach. I think it's actually quite positive that the 
legislation uses the Results Act--in this case, in a way to set 
goals on drug abuse, but I think it's inappropriate use of the 
Results Act, and I assume you would agree with that?
    Mr. Raines. Well, Congress always has the right to set 
goals. I just am simply saying that we should understand the 
consequences if the setting of goals is outside of any range of 
performance we are likely to see. What I would rather see is a 
good interaction between Congress and the agencies, where 
Congress may set an aspirational goal and then call upon the 
agency to specify, how much can you achieve in the next 3 
years, 4 years, 5 years? That is the interaction that I would 
anticipate should happen with the Results Act.
    And then in the performance plan you find out, well, how 
much can you achieve this year, and so you would have a 1-year, 
a multi-year, and then our aspiration as to where we would like 
to be, ultimately, as established in the statute.
    Mr. Portman. I think if you look at the goals we have set 
out in this particular area, which is the ONDCP goals, they do 
not call for elimination or even virtual elimination of drug 
use. They do call for fairly ambitious goals. Again, I think if 
you look from 1979 to 1991, 75 percent reduction in teenage 
drug use, to assume that by 2001 we could have a 60 percent 
reduction, I think it's about 65 percent reduction from current 
levels; that may be doable. I just encourage you--I'm sure you 
already have taken a look at it, but take a careful look as you 
are reviewing all of these performance goals, and I think you 
will find that they are not as unrealistic as perhaps you 
indicated earlier.
    The second point that I would make is that I do think that 
our strategy here is a little bit different than it might be 
with other agencies, because we really want to give General 
McCaffrey and ONDCP the tools to do something they have not 
been able to do previously, and I know that is something that 
you would be intimately involved with, along with the other 
agencies, the 50-odd agencies and departments that have some 
role to play in the drug war. It is not just setting goals 
given the current parameters, it's setting goals that are 
relatively ambitious, I would agree, but then giving General 
McCaffrey and his office, more discretion, more tools at their 
disposal to try to meet those goals. Certainly, that would mean 
your working very closely with him to referee all those 
disputes that would emerge from that.
    So thank you for your time. I have got to go run and vote. 
There are a few other Members who have requested to ask you 
questions, and the Chair has asked me to ask you whether you 
could accommodate that request.
    We will have a series of votes that may go 20 minutes. That 
is the goal we will set; it will probably be more like 25 
minutes. Would that be possible for you to await their return?
    Mr. Raines. Yes, I do have to get back downtown, but I 
could be here as late as 4:30 p.m.
    Mr. Portman. OK, that has been communicated, I am sure, and 
we will now stand in recess until such time as the votes are 
completed. Thank you, Mr. Director.
    [Recess.]
    Mr. Horn [presiding]. We have problems on the floor this 
afternoon. There are 16 votes underway, and that will take us 2 
hours. So, what I would like to do is have staff, before you 
leave the room, work out with you a convenient time we can 
recess this hearing to, so we aren't wasting your time, and not 
having Members who, frankly, want to be here to ask questions. 
So, we would appreciate your indulgence on this, and if staff 
could go down now and try to work out a mutually convenient 
time that does not conflict with the full committee's 
investigations next week, and does not conflict with my 
schedule--so, if you would, bear with us.
    And with that, we will recess to a time to be announced by 
the Chair in the usual manners we have to release when 
committees are meeting. So, with that, we are in recess.
    [Whereupon, at 3:57 p.m., the committee adjourned subject 
to the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 45404.026

[GRAPHIC] [TIFF OMITTED] 45404.027

[GRAPHIC] [TIFF OMITTED] 45404.028

[GRAPHIC] [TIFF OMITTED] 45404.029

[GRAPHIC] [TIFF OMITTED] 45404.030

[GRAPHIC] [TIFF OMITTED] 45404.031

[GRAPHIC] [TIFF OMITTED] 45404.032

[GRAPHIC] [TIFF OMITTED] 45404.033

[GRAPHIC] [TIFF OMITTED] 45404.034

[GRAPHIC] [TIFF OMITTED] 45404.035

[GRAPHIC] [TIFF OMITTED] 45404.036

[GRAPHIC] [TIFF OMITTED] 45404.037

[GRAPHIC] [TIFF OMITTED] 45404.038

[GRAPHIC] [TIFF OMITTED] 45404.039

[GRAPHIC] [TIFF OMITTED] 45404.040

[GRAPHIC] [TIFF OMITTED] 45404.041

[GRAPHIC] [TIFF OMITTED] 45404.042

[GRAPHIC] [TIFF OMITTED] 45404.043

[GRAPHIC] [TIFF OMITTED] 45404.044

[GRAPHIC] [TIFF OMITTED] 45404.045

[GRAPHIC] [TIFF OMITTED] 45404.046

[GRAPHIC] [TIFF OMITTED] 45404.047

[GRAPHIC] [TIFF OMITTED] 45404.048

[GRAPHIC] [TIFF OMITTED] 45404.049

[GRAPHIC] [TIFF OMITTED] 45404.050

[GRAPHIC] [TIFF OMITTED] 45404.051

[GRAPHIC] [TIFF OMITTED] 45404.052

[GRAPHIC] [TIFF OMITTED] 45404.053

[GRAPHIC] [TIFF OMITTED] 45404.054

[GRAPHIC] [TIFF OMITTED] 45404.055

[GRAPHIC] [TIFF OMITTED] 45404.056

[GRAPHIC] [TIFF OMITTED] 45404.057

[GRAPHIC] [TIFF OMITTED] 45404.058

[GRAPHIC] [TIFF OMITTED] 45404.059

[GRAPHIC] [TIFF OMITTED] 45404.060

[GRAPHIC] [TIFF OMITTED] 45404.061

[GRAPHIC] [TIFF OMITTED] 45404.062

[GRAPHIC] [TIFF OMITTED] 45404.063


</pre></body></html>
